Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the Wilmot, Arkansas Police Department
GR-80-00-018September 7, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the city of Wilmot, Arkansas.  The purpose of the grants is to enhance community policing.  Wilmot was awarded a total of $101,463 to hire two new police officers.

We reviewed Wilmot's compliance with seven essential grant conditions.  We found weaknesses in seven areas as identified below.  As a result of our audit, we found $40,463 in unallowable reimbursements and recommend an additional $61,032 remaining funds be deobligated.1

The grantee's law enforcement budget decreased from the initial grant year (1995) during the years of 1997, 1998, and 1999.  The 1996 budget could not be found.
	The required number of total on-board officers was not maintained during the grant period we reviewed.  Between 1997 and mid-1999, the grantee consistently maintained less than the required level of three locally funded full-time police officers.
	Local matching funds could not be determined because of missing records.
	Grantee reimbursement requests contained significant unallowable costs for officer salaries and fringe benefits.
	No plan for the retention of COPS officers was found.
	Community policing was not implemented as detailed in Wilmot's grant application.  The one COPS officer hired during the grant period had a tenure of only 4 months. 
	Several status reports were either not accurate, not timely, or not filed.  

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.




Footnote
1. The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.